U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


              NATIONAL OCEANIC AND
        ATMOSPHERIC ADMINISTRATION

            NMFS Seafood Inspection Program
                         Should Be Divested

           Audit Report No. STL-9607-8-0001 / September 1998




                       Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                              Audit Report No. STL-9607-8-0001
Office of Inspector General                                                                                September 1998
                                                             CONTENTS

                                                                                                                                        Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    I. NMFS Should Divest Itself of the
       Seafood Inspection Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

               A. Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
               B. Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

    II. NMFS Should Correct
        Program Mismanagement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

               A.    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13
               B.    Funds to be put to better use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        13
               C.    Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    14
               D.    OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14

APPENDIX:

               A. Agency Response
U.S. Department of Commerce                                     Audit Report No. STL-9607-8-0001
Office of Inspector General                                                       September 1998
                                    EXECUTIVE SUMMARY

The National Marine Fisheries Service’s voluntary, fee-for-service, seafood inspection program is
operated by the Inspection Services Division (ISD). ISD provides (1) consultative services in
sanitation, laboratory analysis, and training; (2) in-plant quality assurance through inspection and
certification; and (3) product lot inspection and certification. The inspection certifications attest
that the products have been harvested, processed, or sold under sanitary conditions; comply with
domestic and foreign processing requirements; and meet safety, wholesomeness, and labeling
requirements.

ISD provides services to about 2,200 companies, of which about 320 receive in-plant inspection
and certification; the remainder receive product lot inspection and certification.A During 1995,
ISD estimated that more than 1 billion pounds of seafood product, or about 23 percent of the
fishery products consumed in the United States, had been inspected under the voluntary program.

The way seafood inspections are conducted is changing dramatically. A new inspection
methodology, the Hazard Analysis Critical Control Point (HACCP) system, was developed during
the 1980's. NMFS initiated its own HACCP-based system in 1992. The introduction of HACCP
methodology reduces the need for inspector hours because, unlike traditional on-site inspections, a
federal inspector is not present at all times. Instead, the processor monitors its own operations,
while the inspector periodically ensures compliance with the HACCP plan through plant visits and
desk audits of HACCP records. Under the prior in-plant inspection method, a plant required 2,080
hours or more of inspection effort during the year. Under HACCP, a plant needs only 480 hours of
service during the first year, and, potentially, as few as 116 hours annually in later years. NMFS
reports that many plants have converted from in-plant inspection to the HACCP system, thus
creating a shortage of revenue which contributed to the program’s financial losses. ISD’s
aggregate losses for FYs 1994 through 1997 were over $1.7 million. To cover its fee-for-service
shortfalls, ISD used NOAA appropriated monies.

Various proposals for reorganizing or relocating the seafood inspection function have been
explored. During 1997, the Department prepared draft legislation which would convert ISD to a
Performance Based Organization (PBO) within the Food and Drug Administration (FDA).

NMFS Should Divest Itself of the
Seafood Inspection Program

NMFS should divest itself of the seafood inspection program. The program’s mission is to
determine quality by inspecting, measuring, and testing seafood, and to certify the product’s
wholesomeness. This mission is not related to NOAA’s core mission and has little, if any, direct
relationship to NMFS’s other responsibilities and functions.


       A
         Lot inspections are performed on a designated number of samples based on lot size. The
inspections determine whether products comply with purchase agreement criteria, such as product
condition, net drained or deglazed weights, labeling criteria, packaging integrity, etc. The
inspector issues a certificate which attests to the quality and condition of the lot at the time of
inspection.

                                                  i
U.S. Department of Commerce                                      Audit Report No. STL-9607-8-0001
Office of Inspector General                                                        September 1998
Accordingly, we recommend that NOAA:

    l      continue to support legislation to immediately divest the Department of Commerce of
           the Inspection Services Division.

In response to the draft report, NOAA agreed with our recommendation.

NMFS Should Correct
Program Mismanagement

We also found that ISD has been seriously mismanaged in recent years, resulting in large fund
losses, misdirection of efforts, and a serious lack of control over internal functions. Specifically,
ISD did not: (1) recover full costs as required (see page 7), (2) monitor operations and eliminate
training functions not necessary to seafood inspections (see page 9), (3) have adequate training
billing policies (see page 10), (4) limit travel to what was necessary (see page 11), and (5) establish
or always follow invoice, contract, and travel policies (see page 12). Accordingly, NOAA should
take immediate steps to ensure that ISD is appropriately and adequately managed.

We recommend that the Under Secretary for Oceans and Atmosphere:

   l       Require that ISD rates are established to recover full costs.

   l       Eliminate training of non-NMFS personnel.

   l       Fully recover training costs of foreign individuals and require prepayment for foreign
           training.

   l       Eliminate foreign travel that is not fully reimbursed.

   l       Follow established policies for billing and travel.

   l       Ensure that appropriate contractual procedures are followed for all training services.

Implementation of our recommendations would save NOAA about $462,000. This figure
represents projected losses for FYs 1998 and 1999 based on NMFS’s loss for FY 1997.

In response to the draft report, NOAA agreed with our recommendation to recover full costs.
NOAA also generally agreed with our recommendations to follow established policies for billing
and travel, recover the full costs of foreign training, and ensure that appropriate contractual
procedures are followed for training services. However, NOAA disagreed with our
recommendations to eliminate training of non-NMFS personnel, require prepayment for foreign
training, and eliminate all foreign travel that is not reimbursed. NOAA also disagreed that
implementing our recommendations would result in funds to be put to better use.

After careful review and consideration of NOAA’s written response to the draft report, we found
no persuasive evidence to modify our recommendations. As appropriate, we provide our
comments to NOAA’s specific responses to our recommendations.

                                                  ii
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998
                                        INTRODUCTION

The National Marine Fisheries Service’s voluntary seafood quality inspection program is an
outgrowth of the Agricultural Marketing Act of 1946. The Act authorized the Secretary of
Agriculture to assist in the marketing of products by instituting a voluntary inspection and
certification program on a fee-for-service basis so that products could be marketed to the seafood
industry’s best advantage, trading could be facilitated, and consumers could obtain quality
products. The Act classified fish and fishery products as agricultural products. The Act’s
authorities relating to commercial fisheries were transferred to the Department of Interior by the
Fish and Wildlife Act of 1956, and then to NOAA under Reorganization Plan No. 4 in 1970.

In 1986, Congress directed NOAA to design a program of certification and surveillance to improve
the inspection of seafood based on the Hazard Analysis Critical Control Point (HACCP) system.
The main difference between the traditional on-site inspection system and the HACCP system is
that a federal inspector is not required to be on-site all the time. The HACCP system requires that
food processors evaluate the hazards that affect their products, institute controls to minimize the
risk that these hazards create, monitor control performance, and maintain records of the
monitoring. Inspectors periodically ensure compliance with HACCP plans through plant visits
and desk audits of HACCP records.

In 1989, NMFS and the Food and Drug Administration (FDA) announced the creation of a joint,
voluntary seafood inspection program. This program was a response to an executive branch
initiative that addressed consumer concerns regarding fishery products. NMFS and FDA believed
that a program based on the HACCP system would lead to more efficient regulation of the seafood
industry, and would increase consumers’ confidence in the safety, wholesomeness, and labeling of
seafood products. However, according to NMFS, differences of opinion about the need for rule
making led NMFS and FDA to abandon the joint project. In 1992, NMFS announced the
establishment of its own HACCP system-based voluntary program covering safety,
wholesomeness, labeling, and quality attributes. Under the NMFS program, participants are
allowed to place an official government mark on their products; the mark is perceived as a
marketing asset by participating producers.

In January 1994, FDA proposed regulations that would establish mandatory HACCP standards for
the seafood industry. The regulations were approved December 18, 1995, and became effective on
December 18, 1997. They mandate the application of HACCP standards to the processing of all
seafood, including imported seafood. As a consequence of the new regulations, the NMFS
user-fee-based voluntary program’s focus is now to help companies comply with HACCP
requirements by providing plan design, development, and implementation assistance.

Since its implementation, NMFS’ seafood inspection program has been operated by the Inspection
Services Division (ISD), previously within the Office of Industry Services. The Office of Industry
Services was abolished in 1996 and the inspection program was transferred to the new Office of
Sustainable Fisheries. ISD provides (1) consultating services in sanitation, laboratory analysis, and
training; (2) in-plant quality assurance through inspection and certification; and (3) product lot

                                                 1
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998
inspection and certification. The inspection certification attests that the products have been
harvested, processed, or sold under sanitary conditions; comply with domestic and foreign
processing requirements; and meet safety, wholesomeness, and labeling requirements.

ISD provides services to approximately 2,200 companies annually. About 320 of them receive in-
plant inspection and certification, and the remainder receive product-lot inspection and
certification.B During 1995, ISD estimated that more than 1 billion pounds of seafood product, or
about 23 percent of all seafood consumed in the United States, had been inspected under the
voluntary seafood inspection program.

ISD has approximately 200 employees. Its headquarters are located in Silver Spring, Maryland;
regional inspection offices are in Gloucester, Massachusetts; St. Petersburg, Florida; and Bell,
California. ISD's Technical Services Unit is co-located with the Gloucester inspection office.

The Technical Services Unit’s purpose is to provide support functions to the regional inspection
offices. It is composed of four branches: National Training Branch; Standards and Specifications
Branch; Sensory Evaluation Branch; and Document Approval and Supply Services. The National
Training Branch provides training and education to assure uniform application of policy and
procedures, and to expand industry’s, government’s, and inspectors’ knowledge and skills. The
Standards and Specifications Branch develops and revises standards for determining quality levels
and conditions of seafood products used by the seafood industry. The Sensory Evaluation Branch
provides training for using the physical senses (such as eyes, nose, and touch) to determine the
characteristics of seafood products. Document Approval and Supply Services provides a uniform
system for label and specification approval and documentation development, printing, and
dissemination. The Standards and Specifications Branch and the Sensory Evaluation Branch are
funded through NMFS appropriations.

The introduction of HACCP methodology reduced the need for inspector hours. Under the
in-plant inspection method, a plant with a 40-hour-per-week inspection contract required 2,080
hours or more of inspection effort during the year. With the HACCP system, a plant needs only
480 hours of service during the first year, and, potentially, as few as 116 in later years. NMFS
reports that many plants have converted from in-plant inspection to a HACCP system. The
multiple conversions reduced revenues and contributed to the inspection program’s losses. ISD’s
losses for FYs 1994 through 1997 were more than $1.7 million.




       B
         Lot inspections are performed on a designated number of samples based on lot size. The
inspections determine whether products comply with purchase agreement criteria, such as product
condition, net drained or deglazed weights, labeling criteria, packaging integrity, etc. The
inspector issues a certificate which attests to the quality and condition of the lot at the time of
inspection.

                                                  2
U.S. Department of Commerce                                   Audit Report No. STL-9607-8-0001
Office of Inspector General                                                     September 1998
Purpose and Scope of Audit

In response to a request by NOAA’s Assistant Administrator for Fisheries, we conducted an audit
of the operational and financial management of ISD, including travel and training activities. We
conducted our review from February through April 1997. We reviewed program files, records,
reports, and individual travel vouchers at ISD headquarters in Silver Spring, and at the Northeast
Inspection Office in Gloucester. We interviewed program officials at Silver Spring, Gloucester,
St. Petersburg, and Bell.

We reviewed ISD’s procedures for billing and controlling costs and its internal controls.
Management control weaknesses related to billings, travel, and procurement are discussed in our
report. We did not review the validity and reliability controls of computer-generated data because
our audit objectives did not require such a review.

At the time of our review, NOAA and the Department were considering divesting ISD from NMFS
and creating a seafood inspection Performance Based Organization (PBO). This was one of
several PBOs proposed by NMFS to a Vice Presidential task force related to the National
Performance Review. In December 1996, we notified NMFS of several deficiencies that needed to
be corrected before the proposed PBO was established. Since then, discussions have taken place
between NOAA’s Office of General Counsel and Food and Drug Administration officials
regarding the establishment and transfer of the proposed PBO to the FDA. As of May 1998,
NOAA had drafted legislation, in conjunction with FDA, to transfer the program to FDA.

This review was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 24, 1980, as amended.




                                                 3
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998
                           FINDINGS AND RECOMMENDATIONS

I. NMFS Should Divest Itself of the
   Seafood Inspection Program

NMFS should divest itself of the seafood inspection program. NMFS's voluntary program to
determine quality by inspecting, measuring, and testing seafood, and certifying the wholesomeness
of the product, is not part of NOAA’s core mission, and has little, if any, relationship to NMFS's
other responsibilities and functions. Furthermore, the seafood inspection industry is undergoing
major changes and, in its present organizational structure, the program may not be able to compete
with other seafood inspection organizations and agencies.

Seafood Inspection Is Not Part of
NOAA’s Core Mission

In its 1995-2005 Strategic Plan, NOAA identifies its core mission as comprising two components:
promoting global environmental stewardship in order to conserve and wisely manage the Nation’s
marine and coastal resources; and describing, monitoring, and predicting changes in the Earth’s
environment in order to ensure and enhance sustainable economic opportunities. Providing
voluntary, fee-for-service inspections to determine seafood quality lies outside of NOAA’s core
mission. Neither NOAA’s mission statement nor its strategic plan mention seafood inspection as
an important or necessary program activity.

Seafood Inspection Industry Changes
Have Impacted Program

Changes in how seafood quality is inspected, including the introduction of HACCP methodology,
competition from other organizations offering inspection services, and a changing role for the
Food and Drug Administration will inevitably force changes in the present voluntary, fee-for-
service inspection program operated by NMFS.

A major problem affecting the current ISD program is that it relies on voluntary participation by
industry and on fees charged to those participants to cover inspection costs. If NMFS attempts to
raise fees to cover its increased inspection costs, it becomes increasingly difficult to expand the
number of voluntary participants ( also see page 7). The advent of HACCP has added to ISD’s
revenue problems, as HACCP decreases significantly the time required for inspections.
Consequently, it has been difficult for ISD to generate revenues sufficient to cover its operating
costs.

Private inspection firms and other government agencies provide quality assurance services similar
to those provided by NMFS. A basic and long-established policy is that federal agencies should
not compete to provide commercial services that can be provided as well by non-federal entities.
It is highly doubtful that this program can successfully compete with similar private organizations.



                                                 4
U.S. Department of Commerce                                   Audit Report No. STL-9607-8-0001
Office of Inspector General                                                     September 1998
There are at least two firms that compete with NMFS in providing seafood quality inspection and
training services. One is a 12-person firm based in Seattle, Washington, that provides a variety of
services, including training in quality assurance and HACCP methodology, sanitation audits,
product inspections, and design and implementation programs. It operates from Seattle; Dutch
Harbor, Alaska; Newfoundland and New Brunswick, Canada; and Pusan, Korea. The other firm is
based in Geneva, Switzerland, and has a staff of more than 32,000 in 140 countries.

Some state governments also compete with ISD by providing low cost inspection and certification
services to domestic seafood producers and processors. Several states, such as California and
Oregon, provide low cost inspection certificates (about $100 per inspection), which authorize
shipments to foreign countries and satisfy trade and purchasing requirements. Oregon’s
certification program includes a laboratory that provides certification services to firms along the
West Coast.

Department Proposes
Inspection Service Division as PBO

At the initiation of our review, NOAA and the Department were considering restructuring the
seafood quality inspection program as a Performance Based Organization (PBO). NOAA believes
such an organization would provide the same services, but would have less bureaucratic
constraints, and, hopefully, would operate in a more business-like manner, yet still receive policy
direction from the Department. After reviewing ISD’s current operations and its proposed
operations as a PBO, we concluded that only minor operational change would actually occur.
Even as a PBO, the organization might be unable to effectively compete and would continue to
require federal funds.

Upon completing a preliminary review of the proposed PBO conversion plan in December 1996,
we notified NMFS of several flaws that we believed needed to be corrected before moving
forward. A primary flaw in the planned conversion was the absence of a comprehensive business
plan -- an absolute necessity, given that the PBO is to be self-funded through fees for services.
The business plan must demonstrate that the PBO can market specific products competitively and
that the expected revenues will cover costs. The business plan should also include an analysis of
historical and projected financial information and demonstrate how the PBO would compete for
market share. ISD has not yet produced a completed business plan.

Our analysis of the PBO proposal led us to conclude that the PBO would be unlikely to develop
revenues sufficient to cover the expected operating costs. Simply reorganizing ISD as a PBO did
not appear to be sufficient to resolve the program’s inherent problems resulting from its voluntary
structure and fee-for-service base, two major weaknesses in a rapidly changing environment where
potential revenues are steadily declining.




                                                 5
U.S. Department of Commerce                                     Audit Report No. STL-9607-8-0001
Office of Inspector General                                                       September 1998
FDA's Role in Seafood Quality
Can Accommodate the NMFS Program

FDA, located within the Department of Health and Human Services, provides voluntary seafood
inspection certifications at no cost to domestic seafood producers and processors who want to
export seafood products. FDA relies on historical compliance records to determine whether a
seafood exporting firm meets U.S. standards.C The firms can then use the certificates as required
proof of quality to export seafood products into the European Union.

FDA has the responsibility to ensure the safety and quality of all fish and fishery products. Under
the provisions of the Federal Food, Drug, and Cosmetic Act, FDA has regulatory and enforcement
authority to ensure that seafood imported, processed, and consumed in the United States is safe,
clean, and wholesome for human consumption. FDA’s responsibility for food safety was
re-emphasized in January 1997, when the Administration designated it as the agency to ensure the
safety of the nation’s food sources. Although FDA’s traditional role has been regulation and
enforcement of product requirements, FDA’s legal authority also extends to determining product
quality and ensuring food safety.

During our review, discussions were initiated between NOAA and FDA regarding transferring ISD
to FDA. Restructuring ISD as a PBO within FDA was also considered. As of May 1998, NOAA
had drafted legislation, in conjunction with FDA, to transfer the program to FDA. Based on our
review, we believe this may be the most promising course of action.

A. Recommendation

We recommend that NOAA continue to support legislation to immediately divest itself of the
Inspection Services Division.

B. Agency Response

NOAA agreed with our recommendation. NOAA indicated it supports relocating the Inspection
Services Division to FDA to consolidate seafood inspection activities.


       C
          FDA provides a no-cost service to seafood exporters in the form of certificates to facilitate
entry of products into the European Union. The FDA program is based on a file search for
evidence of significant noncompliance with FDA regulations or violations of the Food, Drug and
Cosmetic Act in the past. FDA issues certificates based upon compliance with its normal
surveillance program which has a targeted frequency for on-site evaluation of the processing
facilities and products of once a year for high risk foods such as canned salmon. Low risk foods,
such as fresh or frozen fishery products with a limited potential for a safety hazard are targeted for
inspection once every two years. FDA files may be augmented with information that is received
through the states.




                                                   6
U.S. Department of Commerce                                       Audit Report No. STL-9607-8-0001
Office of Inspector General                                                         September 1998
II. NMFS Should Correct
    Program Mismanagement

ISD’s program mismanagement has allowed expenditures for purposes other than inspection
services and resulted in substantial operating losses. Specifically, ISD did not (1) recover full
costs as required, (2) monitor operations and eliminate training functions not necessary to seafood
inspections, (3) have adequate training billing policies, (4) limit travel to what was necessary, and
(5) establish or always follow invoice, contract, and travel.

NMFS Has Not Fully Recovered Costs

The Agricultural Marketing Act authorizes voluntary inspection and grading services on a
fee-for-service basis by the government. ISD’s seafood inspection program is supported by fees
charged to organizations for inspections as provided for in the Act. The government’s objectives
are that services provided by an agency to specific recipients be self-sustaining, that the benefits be
at least as great as the costs, and that the private sector be able to compete with the government in
supplying comparable services.

NMFS advised that its billing rates are set to recover full costs and contribute to a modest reserve.
This has not happen on a consistent basis because NMFS did not establish billing rates based on
an analysis of ISD costs. The Director of Industry Services, the office with ISD oversight,
subsequently stated that ISD rates were set based on a perception of what inspection service users
would accept. For FY 1997, rates were set at a level that could result in a projected loss of as
much as $790,000. The actual loss for FY 1997, according to NOAA figures, was approximately
$231,000.

The rates established since FY 1994 have not recovered the full cost of the seafood inspection
program resulting in sizable actual losses. The amounts shown below are before cost adjustments
made by NMFS to reduce the reported size of the loss:

                    Fiscal          Revenues          Expenses                 Loss
                    Year              ($000)            ($000)                ($000)

                    1994            $14,015           ($14,474)               ($459)

                    1995             13,817            (13,940)                (123)

                    1996             12,977            (13,874)                (897)

                    1997             12,723            (12,954)                (231)

                    Total                                                   ($1,710)




                                                  7
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998
In the face of these losses, NMFS management transferred costs from the inspection program to
the appropriated Operations, Research, and Facilities fund (OR&F) within NMFS’s Office of
Industry Services. These cost transfers totaled $200,000 in FY 1994, $200,000 in FY 1995, and
$499,000 in FY 1996. The Assistant Administrator for Fisheries was reportedly unaware of the
ISD’s poor financial condition until September 1996, when he was requested to approve the
FY 1996 OR&F cost adjustment.

The Office of Industry Services Director’s explanations for program losses included:

   l       Introduction of the HACCP program, resulting in the conversion of plants from
           traditional in-plant inspections to the HACCP system.

   l       Overly optimistic revenue projections.

   l       Early privatization efforts caused confusion and uncertainty among users who deferred
           entry into the program, delayed expansion of existing services, or chose to exit the
           program rather than make sizable investments in promotions and packaging materials.

   l       NMFS’s delays in authorizing the reduction of permanent staff due to loss of business.

ISD estimated that the projected $790,000 in losses in FY 1997 would require an infusion of at
least that amount from NOAA or NMFS appropriated funds to cover the losses. The Director of
Industry Services stated that setting the FY 1997 rates to cover the estimated costs would have
resulted in a $5.48 per hour rate increase from $39.95 per hour, which he believed would have
further eroded the customer base. Accordingly, the program raised rates by only $2.50 in order to
reduce the “sticker shock” to customers, and to give the program additional time to pursue
overhead cost reductions and improve future business prospects. The loss in FY 1997 actually
was $231,000. According to NMFS, revenues from inspection fees were more than originally
estimated and expenses were less due to reduced travel and training and a reduction in staff.

Raising rates by only $2.50 per hour resulted in the program intentionally not recovering full costs.
As previously noted, programs such as seafood inspection are intended to be self-sustaining.
Accordingly, ISD management should establish rates that will result in a planned break-even of
revenues and costs, not a planned loss. Continuing to rely on NMFS and NOAA funding to cover
shortfalls with appropriated funds is not proper, and diverts funds from NMFS and NOAA mission
requirements.




                                                 8
U.S. Department of Commerce                                   Audit Report No. STL-9607-8-0001
Office of Inspector General                                                     September 1998
National Training Branch Poorly Managed

ISD’s National Training Branch was initially formed to provide training primarily to ISD
inspectors with training costs recovered through inspection fees. In recent years NMFS inspectors
have received most of their training from other inspectors and through on-the-job activities.

In 1992, ISD’s chief redirected the National Training Branch efforts to mainly provide training for
non-ISD people (primarily foreign inspectors) on a cost-reimbursement basis. The
reimbursements were intended to offset much of the training branch costs. The redirection was
unsuccessful. The training branch was unable to attract enough paying customers to recover its
costs. This resulted in losses of $1.9 million for FY 1994 through FY 1996 -- the same period
that ISD’s losses (including the training branch) totaled $1.48 million.

                             National Training Branch                   Total ISD
                 Fiscal      Revenues       Expenses         Loss             Loss
                 Year          ($000)         ($000)        ($000)          ($000)
                 1994            $431         $1,176        ($745)          ($459)
                 1995             350            875         (525)           (123)
                 1996             294            920         (626)           (897)
                 Total                                    ($1,896)        ($1,479)



Management did not take steps to eliminate training functions not necessary to seafood
inspections, an action that would have reduced operating costs. Curtailing the National Training
Branch’s activities would have virtually eliminated ISD’s accumulated losses over the past three
years. ISD’s primary mission would not have been effected by such action once the training
branch shifted its focus to providing external fee-based training.




                                                 9
U.S. Department of Commerce                                             Audit Report No. STL-9607-8-0001
Office of Inspector General                                                               September 1998
Inadequate Training Branch Billing and Expense Policies

ISD’s policies which (1) allowed foreign governments to “post-pay” for training services after the
services were provided and (2) established billing rates below full cost recovery levels contributed
to the training branch’s significant losses. Private organizations requesting training from ISD are
required to prepay fees, but foreign governments are billed after the services are provided. ISD’s
training branch representatives said that foreign governments are allowed to post-pay since their
credit is usually good and, in many cases, governments are prohibited from paying for services in
advance. However, we found that numerous foreign government invoices have remained unpaid
for months and even years. For example, the following courses have not been reimbursed:

                                    Unpaid “Non-reimbursed” Training Costs

                        Foreign                       Month/Year                   Invoice
                        Government

                        Mexico                     October 1995                    $5,040

                        Peru                       September 1996                  17,772

                        Singapore                  October 1996                    10,554


Post-billing foreign governments is contrary to OMB Circular A-25 and Chapter 17 of the
Department’s Accounting Principles and Standards Handbook, which generally require that
charges be collected in advance of or simultaneous with the rendering of services. Furthermore,
we noted that even when course costs are reimbursed, ISD’s fee structure did not always recover
the full cost of offering a course. For example, ISD conducted a three-day HACCP-based training
program in Casablanca, Morocco. This training session was justified as being “revenue producing
at no cost to the government.” In reality, NMFS lost money on this course as shown below.
              Description                                                                      Cost

              Labor (including course preparation)                                           $3,016

              Fringe benefits and overhead                                                    1,336

              Travel to course (partial cost, hotel and airfare paid directly by               210
                            Moroccan Government)

              Travel to attend related course at the Foreign Service Institute                1,754

              Travel for the United Nations presenter                                          576

              Consultant costs for French tutoring and translations                           1,400

              Total                                                                          $8,292

              Billing                                                                        $7,500

              Loss                                                                           ($792)




                                                        10
U.S. Department of Commerce                                                        Audit Report No. STL-9607-8-0001
Office of Inspector General                                                                          September 1998
Questionable Foreign Travel

ISD’s Washington Office personnel made numerous foreign trips that (1) appeared unnecessary for
the effective performance of seafood inspections, (2) did not support income-producing inspection
activities, and (3) were taken when the overall organization was incurring losses. Most of the trips
were not billable, and others, contrary to trip justification statements and user fee regulations, were
not fully reimbursed. Non-reimbursed trips taken by Washington Office personnel included:



Date                 Destination               Purpose                                                    Cost1

Dec. 1994            Belgium                   Participate in discussions with the European Union to     $1,859
                                               develop agreement for food products.

Feb. 1995            Australia; American       Attend Codex 2 meeting; meet with inspection               9,151
                     Samoa                     personnel in Samoa.

May 1995             Hawaii; American          HACCP duties and consultation services (partially          3,124
                     Samoa; Taiwan;            reimbursable; China portion not billed is shown )
                     China

June 1995            Belgium                   Participate in discussions with the European Union to      2,172
                                               develop agreement for food products.

Sept. 1995           Austria; Czech            Meet with various inspection officials to discuss         11,920
                     Republic; Greece;         matters relative to U.S. exports of fishery products.
                     Italy; Cyprus

Jan. 1996            Thailand                  Exhibitor in the Bangkok Seafood Show. 3                   4,601

Feb. 1996            Australia                 Attend Codex meeting on food import and export             6,738
                                               inspection and certification systems.

May 1996             Norway                    Attend Codex meeting on fishery products.                  3,112

May 1996             Chile                     Attend Asian Pacific Economic Conference meeting.          2,876

June 1996            Philippines               APEC conference coordinator (billed, account               6,610
                                               delinquent.)

July 1996            Canada                    Participate in a working group on fish products under      2,601
                                               the Canada/U.S. Free Trade Agreement.

Total                                                                                                   $54,764
1
 Cost represents travel and per diem costs. NMFS does not include labor, fringe benefits, and
preparation time when determining costs.
2
 The Codex Alimentarius Commission is a subsidiary body of the Food and Agriculture Organization
of the United Nations and the World Health Organization. The Codex meetings generally concerned
food import and export inspection and certification systems.
3
    Includes the cost of a trainer from the National Training Branch.




                                                                11
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998
Other Deficiencies Warrant
Management’s Attention

We found deficiencies related to invoice preparation, contract adequacy, and travel policies.
These deficiencies created the potential for abuse and violated the requirements of OMB
Circular A-123, which requires that proper internal control systems be in place to reduce the chance
of waste or improper use of government resources.

We found that invoices were not always prepared by appropriate personnel and controlled through
the NMFS billing system. ISD’s billing personnel normally initiate the billings for fee-related
courses. NMFS then monitors the invoices to ensure that the invoices are paid on a timely basis,
and if not, then delinquent notices are sent. For the 1995 Moroccan course, the trainer prepared
and presented an invoice to the course organizer as requested. The invoice was not paid. Because
the invoice was generated by the trainer rather than NMFS, the invoice did not go through the
agency’s billing system. Consequently, the trainer-generated invoice did not show up on the
NMFS delinquent billing list when it went unpaid. After the trainer notified management that an
invoice was never issued through the billing system, ISD generated an invoice for $7,500 which
was subsequently paid. Invoices should be prepared by NMFS and sent through the NMFS billing
system to ensure timely billing and reduce the chance of abuse.

In addition, the contract between ISD and the course requester contained procedural deficiencies.
The contract covered training services. ISD did not keep the request for training, and the records
did not contain a contract/purchase order for services to be provided by NMFS. These items should
have been obtained and retained by NMFS to document ISD’s obligations to provide services, and
the obligation on the requestor’s part to pay a specific dollar amount in a timely manner.

We also found that ISD has not established procedures for preparing training contracts. As a result,
contracts may not always be properly prepared. For example, ISD provided training services for
four people in Mexico in September 1996. At the time of our review, the $3,270 bill for the course
had not been paid. ISD provided these services without a properly prepared and approved contract.
After the course, the requestor provided a contract to be signed, but the contract contained several
deficiencies. Specifically, the contract:

      l       was provided more than one month after the training,

      l       was in Spanish and referenced Mexican laws and regulations,

      l       required NMFS to attest to its familiarity with Mexico’s acquisition and public works
              laws, and

      l       required NMFS to provide more services than were actually provided.

Contracts should be prepared, and approved by appropriate officials, for all services rendered
outside the Department prior to providing the services.




                                                 12
U.S. Department of Commerce                                     Audit Report No. STL-9607-8-0001
Office of Inspector General                                                       September 1998

In addition, ISD violated NOAA travel policy by not taking the most expeditious and economical
carrier to the Mexican training site. Less expensive, more direct flights were available, but the
instructor was directed by the Mexican official responsible for planning the training to use one
particular flight even though ISD paid the instructor’s travel costs. Reportedly, the instructor was
directed to take the specific flight because several training attendees would also be onboard, and
ground transportation would be provided for all of them at once. However, the instructor reported
that he was the only conference attendee on the flight.

Conclusion

ISD’s management of the seafood inspection program resulted in a program that has lost substantial
amounts of money. ISD management is responsible for ensuring the program’s viability; however,
the program is on the brink of financial insolvency because management has failed to (1) recover
the full operational costs as required, and (2) eliminate unnecessary and money-losing operations
such as occurred in the training branch. The training branch was established primarily to train
NMFS seafood inspectors, but it now primarily trains people and organizations outside ISD.
Inspector training is generally provided through fellow inspectors and on-the-job training. Program
losses were further exacerbated through inadequate monitoring of billings and expenses,
unnecessary travel, and the failure to maintain a proper system of internal controls. ISD
mismanagement must be addressed.

A. Recommendations

We recommend that the Under Secretary for Oceans and Atmosphere:

      l       Require that ISD rates are established to recover full costs.

      l       Eliminate training of non-NMFS personnel.

      l       Fully recover training costs of foreign individuals and require prepayment for foreign
              training

      l       Eliminate foreign travel which is not fully reimbursed.

      l       Follow established policies for billing and travel.

      l       Ensure that appropriate contractual procedures are followed for all training services.

B. Funds to Be Put to Better Use

Implementation of our recommendations would result in approximately $462,000 in funds
to be put to better use. This amount was arrived at by projecting NMFS’s loss for FY 1997 to
FY 1998 and 1999.



                                                 13
U.S. Department of Commerce                                    Audit Report No. STL-9607-8-0001
Office of Inspector General                                                      September 1998

C. Agency Response

NOAA agreed with our recommendation to recover full costs and stated that rates for FY 1998 are
intended to fully recover budgeted costs. NOAA also generally agreed with our recommendations
to follow established policies for billing and travel, recover the full costs of foreign training, and
ensure that appropriate contractual procedures are followed for training services. However, NOAA
disagreed with our recommendations to eliminate training of non-NMFS personnel, require
prepayment for foreign training, and eliminate all foreign travel that is not reimbursed. NOAA
also disagreed that implementing our recommendations would result in funds to be put to better
use.

D. OIG Comments

NOAA has taken several positive actions to identify and correct ISD program deficiencies,
beginning with the NMFS Assistant Administrator’s request that we conduct an audit of ISD’s
operational and financial management. As the audit progressed and issues were identified, NOAA
took additional steps to address some of the deficiencies. As a result, according to NOAA, the full
costs of operating the program are expected to be recovered in FY 1998 and procedural
deficiencies are being addressed.

However, NOAA still disagrees with our recommendations to eliminate training of non-NMFS
personnel, require prepayment for foreign training, and eliminate all foreign travel that is not
reimbursed. The large losses incurred by the training branch contributed significantly to ISD’s
accumulated losses from FY 1994 through FY 1996, with the training branch losses occurring
mainly from unreimbursed training provided to non-NMFS personnel and unpaid foreign training
expenses–deficiencies our recommendations specifically address. NOAA’s reluctance to formally
accept our recommendations is puzzling since much of ISD’s ability to reach a near breakeven
level of operations in FY 1998 can be attributed to reducing its training branch expenses from
$1,176,000 in FY 1994 to $352,000 in FY 1998. Regarding unreimbursable foreign travel, we
still believe that many of the trips were questionable because they appeared unnecessary for the
performance of seafood inspection activities and unwise considering ISD’s financial condition at
the time. We reaffirm our recommendations that ISD eliminate training of non-NMFS personnel,
require prepayment for foreign training, and eliminate all foreign travel that is not reimbursed.

We also believe our funds to be put to better use statement is accurate and realistic. Contrary to
NOAA’s assertion, ISD was not on the path toward restoring financial solvency before our audit.
When we initiated the audit, NMFS officials were unsure as to why the significant losses had
occurred and requested us to identify the causes of such losses. NMFS’s implementation of
several of our recommendations has been largely responsible for reducing its losses in FY 1997 to
$231,000 and to near breakeven levels of operation in FY 1998. Consequently, we reaffirm our
funds to be put to better use statement.




                                                 14
